                 DEPARTMENT OF
                 DEPARTMENT OF HEALTH
                               HEALTH &.
                                      &. HUMAN SERVICES                                                         Office of
                                                                                                                       of Inspector General
(l""t
~+,~ ~
 ::l'\tCCIQ
                                                                                                                Office


                                                                                                                Washington,
                                                                                                                                    General


                                                                                                                            D.C. 20201

                                                                                                                Washington, D.C. 20201




                                                             SEP
                                                             SEP 1155 2008

                                                                       2008
              TO:                Kerry Weems
                                 Acting Administrator
                                         for Medicare
                                 Centers for Medicare && Medicaid
                                                         MedicaidSe
                                                                  Se . ces


              FROM:
                                        v~
                                        í/Ä
                                       E. Vengnn
                                  seph E.
                                 Deputy Inspector General for Audit Services


              SUBJECT:           Review
                                 Review of
 of Excessive Payments for Inpatient Services Processed by National
                                 Government      ServicesininMichigan
                                 Governent Services           Michiganand
                                                                       andWisconsin
                                                                           Wisconsinfor
                                                                                     forCalendar
                                                                                         CalendarYears
                                                                                                  Years 2004
                                                                                                        2004 and
                                                                                                             and
                                 2005
                                 2005 (A-05-07-00069)
                                          (A-05-07-00069)




              Attached is an advance copy ofof our final report on excessive payments for inpatient services
              processed
              processed bybyNational
                            National Government
                                      Governent Services
                                                   ServicesininMichigan
                                                                Michiganand
                                                                          andWisconsin
                                                                              Wisconsinfor
                                                                                         forcalendar
                                                                                             calendar years
                                                                                                      years
              (CY) 2004 and   2005.  We  will issue this report to National Government  Services
                          and 2005. We wil issue this report to National Governent Services withinwithin
                businessdays.
              5 business  days. This
                                This audit was
                                           was part
                                                par of
                                                     ofaa nationwide
                                                          nationwide review
                                                                     review of
                                                                             ofexcessive
                                                                               excessive payments
                                                                                         payments for inpatient
                       of $200,000 or more (high-dollar payments).
              services of

              Our objective was to determine whether high-dollar Medicare payments that National
              Governent Services
              Government   Servicesmade
                                    madetotohospitals
                                             hospitalsfor
                                                       forinpatient
                                                           inpatientservices
                                                                     services were
                                                                              were appropriate.
                                                                                   appropriate.

              Ofthe      172 high-dollar
              Ofthe 172 high-dollar                payments
                                    payments that National  Governentthat  National
                                                                      Services made Government Services madeto  hospitals for

                                                                                                             to hospitals for
                             services for
              inpatient services           for CYs
                                                 CYs 20042004 and  and 2005,65
                                                                          2005,65 were appropriate.
                                                                                       appropriate. The
                                                                                                    The remaining
                                                                                                        remaining 107
                                                                                                                   107 payments
              included       net overpayments
              included net overpayments                    totaling
                                        totaling $1,574,089,  of 
      $1,574,089, of which $1,328,739 for 105 payments had not
              been repaid at the      the start
                                            start ofof our audit.

              Contrary       to guidance,
              Contrar to Federal Federal     guidance,
                                          hospitals           hospitals
                                                    inaccurately reported theinaccurately
                                                                              number of     reported the number of biling
                                                                                                                    billing units
                                                                                                                            units for

                                                                                                                                   for
              blood clotting factor, reported incorrect diagnosis-related group codes on their claims, and
              reported excessive charges    charges that that resulted
                                                                 resulted in  ininappropriate
                                                                                   inappropriateoutlier
                                                                                                 outlierpayments.
                                                                                                         payments. Hospitals
                                                                                                                   Hospitals attributed
                                                                                                                               attrbuted
              most of  of the incorrect claims to data entry errors,            errors, insufficient
                                                                                        insuffcient documentation
                                                                                                     documentation to
                                                                                                                   to support
                                                                                                                       support charges,
                                                                                                                                charges,
              and    a misunderstanding
              and a misunderstanding of 
           of how to    to report
                                                                     report charges.
                                                                                charges. National
                                                                                          NationalGovernment
                                                                                                     Governent Services
                                                                                                                Services made
                                                                                                                          made these
                                                                                                                                  these
              incorrect payments because neither the Fiscal Intermediary Standard System nor the Common
              Working File had sufficient edits in place to detect and prevent the overpayments.

                 recommendthat
              We recommend thatNational
                               NationalGovernment
                                        Governent Services:
                                                  Services:

                    •.   recover the $1,328,739 in identified overpayments,
Page 2 – Kerry Weems


    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation of charges, and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

In written comments on our draft report, National Government Services agreed with the
recommendations and stated that the 105 claims representing overpayments of $1,328,739 were
adjusted and monies were recovered by April 30, 2008.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2621
or through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number A-05-07-
00069.


Attachment
(~
,-­           DEP ARTMEN'l' OF
              DEPARTMENT     OFHEALTU&HUMAN SERVICES
                                HEALTU&HU SERVICES                                                 OFFICE OF INSPECTOR

                                                                                                   Office
                                                                                                             INSPECTORGENERAL

                                                                                                          ofAudit
                                                                                                   Offce of
                                                                                                                       GENERA

                                                                                                             Audit ServiCes.
                                                                                                                   ServiCes.
                                                                                                   Region
                                                                                                   Region  V    V .

                                                  SEP
                                                  SEP 1188 2008
                                                            2008                                   233 North Michigan
                                                                                                              Michigan Ave.
                                                                                                                        Ave. Suite
                                                                                                                             Suite 1360
                                                                                                                                   1360
                                                                                                   Chicago,  IL 60601-5S19
                                                                                                   Chicago, II, 60601-5~19

                                                                                                   (312) 353-2618
                                                                                                   (312) 353-2618
          Number: A-05-07-00069
   Report Number:

   Ms. Sandy Miller
              Miler

   President
   National  Governent Services
   National Government   Services
   8115 Knue Road
   Indianapolis, Indiana
   Indianapolis, Indiana 46250

   Dear Ms. Miller:

   Enclosed
   Enclosed is the is
                   U.S.the  V.S.of Department of Health
                        Deparment                                    andServices
                                                         Health and Human  Human (HHS),Services
                                                                                        Offce of 
 (HHS), Office of Inspector
   General
   General (OIG),(OIG),      final
                  final report       report
                               entitled "Review entitled
                                                of 
     "Review of Excessive Payments for Inpatient Services
   Processed
   Processedby        byNational
                           NationalGovernment            Services in
                                         Governent Services             inMichigan
                                                                           Michiganand    andWisconsin
                                                                                                 Wisconsinfor
                                                                                                           forCalendar
                                                                                                                Calendar Years
                                                                                                                         Years
   2004 and 2005." 2005. " We will forward a copy of this               this report
                                                                             report to to the
                                                                                           the HHS
                                                                                                 HHS action
                                                                                                      action official
                                                                                                             offcial noted on the
   following page for review and any action deemed necessary.

   The HHS action official     offcial will willmake
                                                   makefinal final determination
                                                                     determination as as to
                                                                                          to actions
                                                                                             actions taken
                                                                                                      taken on
                                                                                                            on all
                                                                                                               all matters
                                                                                                                   matters reported.
   We    request
   We request that you that
                        respondyou   respond
                                to this            to 30this
                                        offcial within    daysofficial     within
                                                               from the date of                               this letter.
                                                                                  30 days from the date of this    letter. Your
   response should present any comments or additional information that you believe may have a
   bearng
   bearing on   on the finalfinal determination.
                                    determination.

   Pursuant
   Pursuant to the to  the principles
                    principles                ofthe
                               ofthe Freedom of         Freedom
                                                Information             of§ Information
                                                            Act, 5 U.S.c.   552, 
       Act, 5 V.S.c. § 552, as amended by
   Public Law 104-231, OIG reports generally are made available to the public to the extent the
   information is not subject     subject to   to exemptions
                                                   exemptions in       in the
                                                                           theActAct(45
                                                                                     (45CFR
                                                                                        CFRpart
                                                                                             par 5).
                                                                                                 5). Accordingly,
                                                                                                     Accordingly, this report
   wil
   will bebe posted
               posted on    on the Internet at       at http://oig.hhs.gov.
                                                         htt://oig.hhs.gov.

    If you have any questions or comments about this report, please do not hesitate to call me, or
    If
    contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through e-mail at
    Jaime.Saucedo@oig.hhs.gov.Please
 . Jaime.Saucedo~oig.hhs.gov.     Pleaserefer
                                         referto
                                               to report
                                                   report number
                                                          number A-05-07-00069
                                                                 A-05-07-00069 in all
    correspondence.




                                                               ~~
                                                               Sincerely,



                                                               Marc Gustafson
                                                               Regional Inspector General
                                                                for Audit Services


    Enclosure
Page 2 – Ms. Sandy Miller


cc:
Ms. Sarah Litteral
Director, Part A/RHHI Claims
National Government Services
9001 Linn Station Road
Louisville, Kentucky 40223

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management and Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF EXCESSIVE
   PAYMENTS FOR INPATIENT
   SERVICES PROCESSED BY
   NATIONAL GOVERNMENT
  SERVICES IN MICHIGAN AND
  WISCONSIN FOR CALENDAR
    YEARS 2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-05-07-00069
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File to process claims. The Common Working File can detect certain
improper payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges based on the diagnosis-related group (DRG) to which a beneficiary’s stay is assigned.
The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

The DRG payment is, with certain exceptions, payment in full to the hospital for all inpatient
services. Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239)
provides that PPS hospitals receive payment, in addition to the basic DRG payment, for blood
clotting factor administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act
provides for an additional payment, known as an outlier payment, to hospitals for cases incurring
extraordinarily high costs.

During calendar years (CY) 2004 and 2005, United Government Services was the fiscal
intermediary in Wisconsin and Michigan. United Government Services processed approximately
1.7 million inpatient claims during this period, 172 of which resulted in payments of $200,000 or
more (high-dollar payments). In January 2007, National Government Services assumed the
business operations of United Government Services.

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 172 high-dollar payments that National Government Services made to hospitals for
inpatient services for CYs 2004 and 2005, 65 were appropriate. The remaining 107 payments
included net overpayments totaling $1,574,089, of which $1,328,739 for 105 payments had not
been repaid at the start of our audit.




                                                i
Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for
blood clotting factor, reported incorrect DRG codes on their claims, and reported excessive
charges that resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect
claims to data entry errors, insufficient documentation to support charges, and a
misunderstanding of how to report charges. National Government Services made these incorrect
payments because neither the Fiscal Intermediary Standard System nor the Common Working
File had sufficient edits in place to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that National Government Services:

    •   recover the $1,328,739 in identified overpayments,

    •   use the results of this audit in its provider education activities related to data entry
        procedures and proper documentation of charges, and

    •   consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our
recommendations and stated that the 105 claims representing overpayments of $1,328,739 were
adjusted and monies were recovered by April 30, 2008. National Government Services’
comments are included in their entirety as the Appendix.




                                                  ii
                                                 TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries....................................................................1
              Claims for Inpatient Services.......................................................................1
              National Government Services ....................................................................2

         OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................2
              Objective ......................................................................................................2
              Scope............................................................................................................2
              Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          CAUSES OF OVERPAYMENTS...........................................................................4

          RECOMMENDATIONS.........................................................................................5

          NATIONAL GOVERNMENT SERVICES COMMENTS ....................................5

APPENDIX

          NATIONAL GOVERNMENT SERVICES COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common Working
File to process hospitals’ inpatient claims. The Common Working File can detect certain
improper payments during prepayment validations.

In calendar years (CY) 2004 and 2005, fiscal intermediaries processed and paid approximately
27 million inpatient claims, 5,125 of which resulted in payments of $200,000 or more (high-dollar
payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare Claims
Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires that hospitals submit
claims on the appropriate forms for all provider billings, and Chapter 1, section 80.3.2.2, requires
that claims be completed accurately to be processed correctly and promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides that
PPS hospitals receive payment, in addition to the basic DRG payment, for blood clotting factor
administered to hemophilia inpatients. Also, section 1886(d)(5)(A)(ii) of the Act provides for an
additional Medicare payment, known as an outlier payment, to hospitals for cases incurring
extraordinarily high costs. 1 The fiscal intermediary identifies outlier cases by comparing the
estimated costs of a case with a DRG-specific fixed-loss threshold. 2 To estimate the cost of a
case, the fiscal intermediary uses the Medicare charges that the hospital



1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay substantially
exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to qualify
for an outlier payment.


                                                          1
reports on its claim and the hospital-specific cost-to-charge ratio. Inaccurately reporting charges
could lead to excessive outlier payments.

National Government Services

During our audit period (CYs 2004 and 2005), United Government Services was the fiscal
intermediary in Wisconsin and Michigan. United Government Services processed approximately
1.7 million inpatient claims during this period, 172 of which resulted in high-dollar payments. In
January 2007, National Government Services assumed the business operations of United
Government Services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that National
Government Services made to hospitals for inpatient services were appropriate.

Scope

We reviewed the 172 high-dollar payments, which totaled $48,555,636, for inpatient claims that
National Government Services processed during CYs 2004 and 2005. We limited our review of
National Government Services’ internal controls to those applicable to the 172 claims because our
objective did not require an understanding of all internal controls over the submission and
processing of claims. Our review allowed us to establish reasonable assurance of the authenticity
and accuracy of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

We conducted our fieldwork from June 2007 through February 2008. Our fieldwork included
contacting National Government Services, located in Milwaukee, Wisconsin, and the hospitals
that received the high-dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;

   •    reviewed available Common Working File claim histories for claims with high-dollar
        payments to determine whether the claims had been canceled and superseded by revised
        claims and whether payments remained outstanding at the time of our fieldwork;




                                                 2
    •    contacted the hospitals that received the high-dollar payments to determine whether the
         information on the claims was correct and, if not, why the claims were incorrect and
         whether the hospitals agreed that refunds were appropriate; and

    •    validated with National Government Services that partial overpayments occurred and
         refunds were appropriate.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Of the 172 high-dollar payments that National Government Services made to hospitals for
inpatient services for CYs 2004 and 2005, 65 were appropriate. The remaining 107 payments
included net overpayments totaling $1,574,089, of which $1,328,739 for 105 payments had not
been repaid at the start of our audit.

Contrary to Federal guidance, hospitals inaccurately reported the number of billing units for blood
clotting factor, reported incorrect DRG codes on their claims, and reported excessive charges that
resulted in inappropriate outlier payments. Hospitals attributed most of the incorrect claims to
data entry errors, insufficient documentation to support charges, and a misunderstanding of how to
report charges. National Government Services made these incorrect payments because neither the
Fiscal Intermediary Standard System nor the Common Working File had sufficient edits in place
to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

The “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 10.1, requires
that hospitals submit claims on the appropriate forms for all provider billings, and Chapter 1,
section 80.3.2.2, requires that claims be completed accurately to be processed correctly and
promptly.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides that
PPS hospitals receive an additional payment for the cost of administering a blood clotting factor to
Medicare beneficiaries with hemophilia during an inpatient stay. 3 The payment is based on a
predetermined price per unit of clotting factor multiplied by the number of units provided. During
our audit period, the “Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section
20.7.3, required 100 international units (IU) of the clotting factor to be reported as

3
 Section 6011(d) was amended by section 13505 of the Omnibus Budget Reconciliation Act of 1993 (P.L. No. 103-
66) and section 4452 of the Balanced Budget Act of 1997 (P.L. No. 105-33) so that it is effective for discharges
occurring on or after June 19, 1990, and before October 1, 1994, and for discharges occurring on or after October 1,
1997.



                                                          3
1 billing unit. In reporting the number of billing units, hospitals divide the number of IUs
administered by 100. 4

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

National Government Services made net overpayments totaling $1,328,739 for 105 payments that
hospitals had not refunded prior to the start of our audit. Hospitals received these overpayments
by inaccurately reporting the number of billing units for blood clotting factor, reporting incorrect
DRG codes on their claims, and reporting excessive charges that resulted in inappropriate outlier
payments. The following examples illustrate the high-dollar overpayments:

    •    A hospital reported inaccurate blood factor units because it did not divide the IUs by 100
         as required. As a result, National Government Services paid the hospital $449,511 when it
         should have paid $37,156, a $412,355 overpayment.

    •    A hospital submitted a claim with a principal diagnosis code of pneumonia, DRG code 89,
         for which the reimbursement amount was $307,790. As a result of our inquiry, the
         hospital reviewed its medical records and determined that the proper diagnosis code was
         chronic respiratory failure, DRG code 87, for which the reimbursement amount was
         $247,420. As a result, National Government Services overpaid the hospital $60,370.

    •    A hospital was reimbursed $216,427 for a claim that included $85,039 in excessive
         pharmacy charges because of data entry errors. As a result, National Government Services
         overpaid the hospital $28,827 in outlier payments.

CAUSES OF OVERPAYMENTS

Providers attributed most of the incorrect claims to data entry errors, insufficient documentation to
support charges, and a misunderstanding of how to report charges. National Government Services
made the incorrect payments because neither the Fiscal Intermediary Standard System nor the
Common Working File had sufficient edits in place to detect and prevent the overpayments. In
effect, CMS relied on hospitals to notify the fiscal intermediaries of excessive




4
 Effective July 14, 2006, CMS Transmittal 903, Change Request 4229, instructed fiscal intermediaries to (1) no
longer multiply the payment amount by 100 when loading the fee amounts to the Healthcare Common Procedure
Coding System file for inpatient hemophilia clotting factor and (2) instruct their providers to no longer divide the
number of units by 100 when billing for clotting factor.



                                                           4
payments and on beneficiaries to review their “Explanation of Medicare Benefits” and disclose
any overpayments. 5

RECOMMENDATIONS

We recommend that National Government Services:

     •   recover the $1,328,739 in identified overpayments,

     •   use the results of this audit in its provider education activities related to data entry
         procedures and proper documentation of charges, and

     •   consider implementing controls to identify and review all payments greater than $200,000
         for inpatient services.

NATIONAL GOVERNMENT SERVICES COMMENTS

In written comments on our draft report, National Government Services agreed with our
recommendations and stated that the 105 claims representing overpayments of $1,328,739 were
adjusted and monies were recovered by April 30, 2008. National Government Services’
comments are included in their entirety as the Appendix.




5
 The fiscal intermediary sends an “Explanation of Medicare Benefits” notice to the beneficiary after the hospital files
a claim for Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment,
and the amount due from the beneficiary.


                                                           5
APPENDIX
APPENDIX
